r
®ntteh States Court of Appeals;
for tfjc Jftftfj Circuit

United StatesCourt of Appeals
Fifth Circuit

FILED
August 2, 2021
No. 20-30627
Summary Calendar

Lyle W. Cayce
Clerk

r Tony Joseph Tabor,
Plaintiff—Appellant^
versus
Vincent Coleman
Defendant—Appellee.

Appeal from the United States District Court
for the Western District of Louisiana
USDCNo. 5:18-CV-1308

Before Jolly, Willett, and Engelhardt, Circuit Judges.
Per Curiam:*
,
. '
,

y \

Tony Joseph Tabor, Louisiana prisoner # 478277, filed a civil rights
complaint against three prison officials, including Vincent Coleman. In an
amended complaint, Tabor dismissed the other two defendants. He asserted
a variety of claims against Coleman. The district court dismissed some of

‘ Pursuant to Sth Circuit Rule 47.5, the court has determined that this *
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

|:

No. 20-30627

Tabor’s claims for failure to state a claim, and it dismissed other claims
because they were duplicative of claims Tabor was pursuing in a separate
pending civil action.
The claim that Coleman used excessive force when he sprayed Tabor
with a chemical agent was the subject of summary judgment motions filed by
both parties. The district court denied Tabor’s summary judgment motion,
but it granted summary judgment in favor of Coleman on the excessive force
claim. Tabor timely appealed.
In his pro se brief, which we liberally construe, see Morrow v. FBI,
2 F.3d 642, 643 n.2 (5th Cir. 1993), Tabor raises several issues. He asserts
that the district court “neglected” to order the production of the camera
footage of the incident in which Coleman sprayed him with a chemical agent.
We construe Tabor’s brief as raising a challenge to the denial of his motion
to compel production of the camera footage, a decision we review for abuse
of discretion. See Wiwa v. Royal Dutch Petroleum Co., 392 F.3d 812,817 (5th
Cir. 2004). “The standard of review poses a high bar; a district court’s
discretion in discovery matters will not be disturbed ordinarily unless there
are unusual circumstances showing a clear abuse.” Marathon Fin. Ins., Inc,
RRG v. Ford Motor Co., 591 F.3d 458,469 (5th Cir. 2009) (internal quotation
marks omitted).
As the magistrate judge observed in her report, which the district
court determined was correct, the discovery period had expired before
Coleman moved to compel production of the camera footage. Tabor has
therefore not shown an abuse of discretion. See Brand Servs., L.L. C. v. Irex
Corp., 909 F.3d 151,156 (5th Cir. 2018).
Tabor also complains that the district court failed to issue an order
compelling a response to his interrogatories. Here, although Tabor filed in
the district court a set of interrogatories seemingly also sent to defense

2

No. 20-30627

counsel, he did not move in the district court to compel a response to his
interrogatories. Absent “unusual circumstances,” a district court does not
abuse its discretion by not ordering discovery sua sponte. See Boudreaux
v. Swift Transp. Co., 402 F.3d 536, 545 (5th Cir. 2005). Because Tabor has
pointed to no “unusual circumstances,” he has not shown an abuse of
discretion.. Setf id.
Next, Tabor argues that the district court should have appointed
counsel to represent him. “A civil rights complainant has no right to the
automatic appointment of counsel. ” Ulmer v. Chancellor, 691 F.2d 209, 212
(5th Cir. 1982). Because the instant case did not present “exceptional
circumstances,” the district court did not err in failing to appoint counsel.
See id.
Because Tabor does not brief a challenge to the district court’s
summary judgment rulings on his excessive force claim, and likewise he does
not brief any challenge to the district court’s earlier dismissal of his other
claims for failure to state a claim.and as duplicative, he has waived any
challenge to the dispositions of.these claims. See Yohey v. Collins, 985 F.2d
222,224-25 (5th Cir. 1993); Brinkmannv. Dallas Cnty. Deputy SheriffAbner,
813 F.2d 744, 748 (5th Cir. 1987). To the extent that Tabor argues that the
district court erred by failing to address a claim under the Americans with
Disabilities Act, his contention fails, as the passing reference to- “the
A.D.A.” in his amended complaint, unaccompanied by factual allegations
that would support a claim under the Americans with Disabilities Act, was
insufficient to raise such a claim.
In view of the foregoing, the judgment of the district court is
AFFIRMED. Tabor’smotionfortheappointmentofcounseHs.DENIED.
His motion for a temporary restraining order and a preliminary injunction is
- also DENIED.

3

Case 5:18-cv-01308-SMH-KLH Document 50 Filed 09/03/20 Page 1 of 1 PagelD #: 367

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF LOUISIANA
SHREVEPORT DIVISION

TONY JOSEPH TABOR #478277

CASE NO. 5:18-CV-01308 SEC P

VERSUS

JUDGE S. MAURICE HICKS, JR.

VINCENT COLEMAN ET AL

MAGISTRATE JUDGE KAREN L.
HAYES

JUDGMENT
The Report and Recommendation of the Magistrate Judge, as supplemented, having been
considered, together with the written objections filed with this Court, and, after a de novo review
of the record, finding that the Magistrate Judge’s Report and Recommendation is correct,
IT IS ORDERED that Defendant’s Motion for Summary Judgment (Record Document
31) is GRANTED and Plaintiffs claims are DISMISSED WITH PREJUDICE.
IT IS FURTHER ORDERED that Plaintiffs Motion for Summary Judgment (Record
Document 33) is DENIED.
The Clerk of Court is directed to close this case.
THUS DONE AND SIGNED, in Shreveport, Louisiana, this 3rd day of September, 2020.

‘ S. Maurice Hicks, Jr.
Chief, United States District Judge

Case 5:18-cv-01308-SMH-KLH Document 47 Filed 04/22/20 Page 1 of 7 PagelD #: 355

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF LOUISIANA
SHREVEPORT DIVISION

TONY JOSEPH TABOR

CASE NO. 5:18-CV-01308 SEC P

VERSUS

JUDGE S. MAURICE HICKS, JR.

VINCENT COLEMAN, ET AL.

MAG. JUDGE KAREN L. HAYES

SUPPLEMENTAL REPORT AND RECOMMENDATION
Before the undersigned magistrate, on reference from the District Court, are cross­
motions for summary judgment filed by plaintiff Tony Tabor [doc. # 33] and remaining
defendant, Vincent Coleman [doc. # 31]. Also before the court are plaintiffs letter-motions for
an extension of time to comply [doc. # 40] and for production of video surveillance evidence
[doc. # 41]. For reasons assigned below, it is again recommended that plaintiffs motion for
summary judgment be DENIED, and that defendant’s motion for summary judgment be
GRANTED. It is further ordered that plaintiffs motions for extension of time and for
production of video surveillance evidence are DENIED.
Background
On December 16, 2019, the undersigned issued a report recommending that plaintiffs
motion for summary judgment be denied, that defendant’s motion for summary judgment be
granted, and that plaintiffs claims be dismissed. (Report and Recommendation (“R&R”) [doc. #
38]). As modified below, the prior R&R is adopted by reference and made a part hereof as if
copied in extenso.
On December 30, 2019, plaintiff filed a “MOTION TO ALTER Judgements [sic],” which
the Clerk of Court docketed as an objection to the R&R. [doc. # 39]. In his objection, plaintiff
stated, inter alia, that he had asked defense counsel to produce a copy of video footage from the

Case 5:18-cv-01308-SMH-KLH Document 47 Filed 04/22/20 Page 2 of 7 PagelD #: 356

subject incident. Id. Plaintiff attached to his submission a copy of a motion to compel all video
tape footage evidence for the cell camera of N-3, A-tier, cell one that he purportedly filed on
August 25, 2019. Id., Exh. 1.
On January 13, 2020, plaintiff filed the instant letter-motion in each of his three cases
before this court (Civil Action Nos. 17-0907, 18-0621, and 18-1308), wherein he requested an
extension of time to comply with “each issue in these three cases . .

stemming from a delay

associated with his legal mail. [doc. # 40]. By separate document, plaintiff submitted a copy of
a motion to compel defendant to produce video footage from February 7, 2017, at David Wade
Correctional Center (“DWCC”), N-3 Unit, A-tier, cell one, that he purportedly transmitted to
opposing counsel on, or about April 10, 2018. [doc. # 41]. In his cover letter, however, plaintiff
acknowledged that the original version of the motion that he sent to the Clerk of Court must have
been lost in the mail. Id.
In light of plaintiff s objection and letter-motions, the District Court remanded the case to
the undersigned for further consideration. (Feb. 28, 2020, Order [doc. # 42]). On March 2,
2020, the Clerk of Court issued notices that set briefing deadlines for plaintiffs motions, [doc.
#s 44-45].
On March 23, 2020, defendant Vincent Coleman filed a response to the motions in which
counsel represented that he never received a letter from plaintiff dated April 10, 2018, requesting
video footage of the February 7, 2017, incident. (Def. Opp. Memo. [doc. # 46]). Defendant
added that he did not even make an appearance in this matter until March 2019, i.e., almost one
year after plaintiff purportedly sent his request for video surveillance evidence. Id. Furthermore,
even if defendant had received a request for video footage regarding the February 7, 2017,
2

Case 5:18-cv-01308-SMH-KLH Document 47 Filed 04/22/20 Page 3 of 7 PagelD #: 357

incident, he would have informed plaintiff that the DWCC purges and recycles the video feed
from the server every thirty (30) days because of the facility’s limited storage capacity. Id.
Plaintiff did not file a reply brief, and the time to do so has lapsed. See Notices of
Motion Setting [doc. #s 44-45]. Accordingly, the matter is ripe.
Discussion
As an initial matter, the discovery period in this case ended no later than July 15, 2019.
See Dec. 3, 2018, Mem. Order [doc. # 13]. Further, there is no indication that plaintiff sought to
compel defendant to produce video camera footage within that deadline. Even if he had,
defendant represented that the footage was not preserved.1 Needless to say, the court cannot
compel defendant to produce evidence that he does not possess.
Rule 37 addresses a party’s failure to preserve electronically stored information:
[i]f electronically stored information that should have been preserved in the
anticipation or conduct of litigation is lost because a party failed to take reasonable
steps to preserve it, and it cannot be restored or replaced through additional
discovery, the court:
(1) upon finding prejudice to another party from loss of the information, may order
measures no greater than necessary to cure the prejudice; or
(2) only upon finding that the party acted with the intent to deprive another party
of the information's use in the litigation may:
(A) presume that the lost information was unfavorable to the party;
(B) instruct the jury that it may or must presume the information was
unfavorable to the party; or
(C) dismiss the action or enter a default judgment.
Fed.R.Civ.P. 37(e).

i

In the future, defense counsel should support such representations via declaration or affidavit
from the proper custodian of DWCC’s video footage.
3

Case 5:18-cv-01308-SMH-KLH Document 47 Filed 04/22/20 Page 4 of 7 PagelD #: 358

Thus, four predicate elements must be established before Rule 37(e) applies: 1) the
existence (at least at one time) of electronically stored information (“ESI”) that should have been
preserved;2 2) the ESI has been lost; 3) the ESI was lost because of a party’s failure to take
reasonable steps to preserve it; and 4) the ESI cannot be restored or replaced. UMG Recordings,
Inc. v. Grande Commc'ns Networks, LLC, No. 17-365, 2019 WL 4738915, at *1 (W.D. Tex.
Sept. 27, 2019).
Once the court determines that the foregoing elements have been established, then it may
consider imposition of the appropriate responsive measure. If a party has been prejudiced by the
loss of the ESI, the court “may order measures no greater than necessary to cure the prejudice ..
.” If, on the other hand, the court finds that the party who lost the ESI “acted with the intent to
deprive another party of the information’s use in the litigation,” then the court may choose to
impose one of three, more severe, sanctions.
Here, the record contains evidence that plaintiff asked the DWCC to preserve the camera
footage in his initial grievance that he submitted to the DWCC on February 16, 2017. [doc. #
26-1, pg. 5]. Certainly, at that point, the DWCC had notice that the video camera evidence was
potentially relevant to the subject incident and that it needed to be preserved. However, the
evidence, assuming it existed, was not preserved.

2 A party’s duty to preserve evidence arises when “the party has notice that the evidence is
relevant to litigation or when a party should have known that the evidence may be relevant to
future litigation.” Toth v. Calcasieu Parish, Civ. Action No. 06-0998, 2009 WL 528245 (W.D.
La. Mar. 2, 2009) (Trimble, J.) (citation and internal quotation marks omitted); Dixon v.
Greyhound Lines, Inc., Civ Action No. 13-0179, 2014 WL 6087226, at *3 (M.D. La. Nov. 13,
2014). A person “anticipating] being a party ... to a lawsuit must not destroy unique, relevant
evidence that might be useful to an adversary.” Toth, supra. The duty to preserve extends to
evidence that a party “knows, or reasonably should know, is relevant in the action, is reasonably
calculated to lead to the discovery of admissible evidence, is reasonably likely to be requested
during discovery and/or is the subject of a pending discovery request.” Id.
4

I

Case 5:18-cv-01308-SMH-KLH Document 47 Filed 04/22/20 Page 5 of 7 PagelD #: 359

The question is whether the DWCC’s omission may be attributed or extended to
Coleman. To the extent that Coleman may be held responsible for the DWCC’s failure to
preserve ESI, plaintiff has not demonstrated that he was prejudiced by the loss of the ESI or that
Coleman intended to deprive him of the use of the ESI.
The court emphasizes that plaintiff has not supported or opposed the pending motions for
summary judgment with competent summary judgment such as his own affidavit or declaration
made under penalty of perjury pursuant to 28 U.S.C. § 1746. Therefore, there is no indication
that he in good faith contests defendant’s version of events at all.
Furthermore, even if the lost ESI supported plaintiffs unsworn allegations, that does not
change the outcome. According to plaintiff, Coleman administered up to three rounds of pepper
spray in response to plaintiffs vocal outbursts. Afterwards, however, it is uncontroverted that
plaintiff was seen by DWCC medical personnel, offered an eye wash, and permitted to shower.
(Affidavit of Terrance Haulcy; Def. MSJ, Exh. 2 [doc. # 31-5]).

His cell also was cleaned and

sanitized. Id. Given the prompt remedial measures, plaintiff has failed to show that it was
clearly established at the time that defendant’s actions violated the Constitution. See McCoy v.
Alamu, 950 F.3d 226, 233 (5th Cir.2020) (not clearly established that unwarranted pepper
spraying was unconstitutional). Accordingly, defendant is entitled to qualified immunity.3

3 Insofar as plaintiff also intended to sue Coleman in his official capacity, the court observes that
official-capacity suits, “generally represent only another way of pleading an action against an
entity of which an officer is an agent.” Kentucky v. Graham, 473 U.S. 159, 166, 105 S.Ct. 3099,
3105 (1985) (citing, Monell v. New York City Dept, ofSocial Services, 436 U.S. 658, 690, n. 55,
98 S.Ct. 2018, 2035, n. 55 (1978)). To impose § 1983 liability against a government entity for
the misconduct of one of its employees or officers, plaintiff must demonstrate that the
constitutional deprivation was caused by a policy or custom of the entity. Kohler v. Englade,
470 F.3d 1104, 1115 (5th Cir. 2006) (citing Monell v. New York City Dept. ofSoc. Serv., 436U.S.
658, 690-691, 98 S.Ct. 2018, 2036 (1978)). “In a Section 1983 case, the burden of proving the
5

Case 5:18-cv-01308-SMH-KLH Document 47 Filed 04/22/20 Page 6 of 7 PagelD #: 360

Conclusion
For the foregoing reasons,
IT IS ORDERED that plaintiff Tony Tabor’s letter-motions for an extension of time to
comply [doc. # 40] and for production of video surveillance evidence [doc. # 41] are DENIED.4
IT IS RECOMMENDED that defendant Vincent Coleman’s motion for summary
judgment [doc. # 31] be GRANTED and that plaintiff Tony Tabor claims be DISMISSED, with
prejudice,5 in their entirety.
IT IS FURTHER RECOMMENDED that plaintiffs motion for summary judgment [doc.
# 33] be DENIED.
Under the provisions of 28 U.S.C. § 636(b)(1)(C) and FRCP Rule 72(b), the parties have
fourteen (14) days from service of this Report and Recommendation to file specific written
objections with the Clerk of Court. A party may respond to another party’s objections within
fourteen (14) days after being served with a copy. A courtesy copy of any objection or response
or request for extension of time shall be furnished to the District Judge at the time of filing.
Timely objections will be considered by the District Judge before making a final ruling.

existence of an unconstitutional municipal policy or established custom rests upon the plaintiff.”
McConney v. City of Houston, 863 F.2d 1180, 1184 (5th Cir. 1989). Plaintiff has not made the
requisite showing here. In fact, he maintains that Coleman failed to follow DWCC use of force
procedures.
4 As these motions are not excepted in 28 U.S.C. § 636(b)(1)(A), nor dispositive of any claim on
the merits within the meaning of Rule 72 of the Federal Rules of Civil Procedure, this ruling is
issued under the authority thereof, and in accordance with the standing order of this court. Any
appeal must be made to the district judge in accordance with Rule 72(a) and L.R. 74.1(W).
5 The initial R&R mistakenly recommended that plaintiffs claims be dismissed without
prejudice.
6

Case 5:18-cv-01308-SMH-KLH Document 47 Filed 04/22/20 Page 7 of 7 PagelD #: 361

Failure to file written objections to the proposed findings, conclusions, and
recommendations contained in this Report and Recommendation within fourteen (14) days
from the date of its service, shall bar an aggrieved party, except on grounds of plain error,
from attacking on appeal the unobjected-to factual findings and legal conclusions accepted
by the District Judge.
In Chambers, Monroe, Louisiana, this 22nd d|y |f April 2020.

t
Karen L. Hayes
United States Magistrate Ju

7

Case 5:18-cv-01308-SMH-KLH Document 38 Filed 12/16/19 Page 1 of 7 PagelD #: 330

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF LOUISIANA
SHREVEPORT DIVISION

TONY JOSEPH TABOR #478277

CASE NO. 5:18-CV-01308 SEC P

VERSUS

JUDGE S. MAURICE HICKS, JR.

VINCENT COLEMAN ET AL

MAGISTRATE JUDGE KAREN L.
HAYES

REPORT AND RECOMMENDATION
Pro se Plaintiff Tony Tabor filed suit against Defendant Officer Vincent Coleman under
42 U.S.C. § 1983. The parties have filed cross motions for summary judgment. This matter has
been referred to the undersigned for review, report, and recommendation in accordance with 28
U.S.C. § 636 and the standing orders of the Court. For reasons that follow, it is recommended that
Tabor’s motion be DENIED, that Coleman’s motion be GRANTED, and that Tabor’s claims be
DISMISSED WITH PREJUDICE.
Background
This is a Section 1983 case stemming from an incident at Davis Wade Correctional Center
(“DWCC”) on February 7, 2017, when Coleman sprayed Tabor in his face with mace. Tabor is an
offender in the custody of the Louisiana Department of Public Safety and Corrections and is
currently imprisoned at Elayn Hunt Correctional Center in St. Gabriel, Louisiana.
On October 4, 2018, Tabor filed the instant proceeding, alleging his constitutional rights
were violated when excessive force was used against him for no reason, [doc. # 1]. Tabor alleges
that Coleman instructed him to “come to the cell bars” and then sprayed him with an excessive,
“non-policy” amount of chemical agent in the eyes, nose, and mouth, [doc. #s 1, pp. 3-5; 11, p.l].
1

Case 5:18-cv-01308-SMH-KLH Document 38 Filed 12/16/19 Page 2 of 7 PagelD #: 331

Conversely, Coleman says that on the evening of February 7, 2017, Tabor refused to stop
yelling, was given several direct verbal orders to stop yelling, and was warned that he would be
sprayed with a chemical agent if he did not comply, (doc. #s 31-4, f 8; 31-5, f 8). Because Tabor
refused to stop yelling, Coleman sprayed Tabor with a short burst of mace to his head and shoulder
area. Id. After the chemical agent took effect, Coleman verbally ordered Tabor to come to the bars
to be restrained, and Tabor complied. Id. Tabor was then given the opportunity to receive medical
care. Id. This version of events is supported by affidavits from Officer Terrance Haulcy and Officer
Vince Coleman himself.
Tabor asks the Court to demote defendant, and he seeks $100,000, $250 for each day he
was deprived of bedding, and an injunction prohibiting Coleman from using a “chemical agent to
harm anyone else.” [doc. #s 1, p. 7; 11, p.4].
On December 3,2018, the undersigned issued a report and recommendation recommending
that, with the exception of Tabor’s excessive force claim, his claims be dismissed, [doc. # 12] On
December 27, 2018, the District Judge adopted the report and recommendation, [doc. # 17].
On August 23, 2019, Coleman filed a motion for summary judgment, [doc. # 31]. On
September 5, 2019, Tabor filed a cross-motion for summary judgment, [doc. # 33]. On October 4,
2019, Tabor filed a memorandum in opposition to Tabor’s motion for summary judgment, [doc. #
37]. The matter is ripe.
Summary Judgment Principles
Summary judgment is appropriate when the evidence before the court shows there is no
genuine dispute as to any material fact and the movant is entitled to judgment as a matter of law.
Fed. R. Civ. P. 56(a). A fact is material if proof of its existence or nonexistence would affect the
2

Case 5:18-cv-01308-SMH-KLH Document 38 Filed 12/16/19 Page 3 of 7 PagelD #: 332

outcome of the lawsuit under the applicable law in the case. Anderson v. Liberty Lobby, Inc., All
U.S. 242, 248 (1986). A dispute about a material fact is genuine if the evidence is such that a
reasonable jury could return a verdict for the nonmoving party. Id.
The moving party bears the initial burden in summary judgment and must demonstrate
through portions of the pleadings, depositions, answers to interrogatories, admissions and/or
affidavits that no genuine issue of material fact exists. Celotex Corp. v. Cattrett, All U.S. 317,
323 (1986). Once the moving party has successfully demonstrated the absence of a genuine issue
of material fact, the burden shifts to the non-moving party to show the opposite. Matsushita Elec.
Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 586 (1986). In doing so, the non-moving party
may not merely rely on the allegations and conclusions contained within the pleadings; rather, he
"must go beyond the pleadings and designate specific facts in the record showing that there is a
genuine issue for trial." Wallace v. Texas Tech Univ., 80 F.3d 1042, 1047 (5th Cir. 1996).
Furthermore, these specific facts must be shown through something more than "some metaphysical
doubt as to the material facts, by conclusory unsubstantiated allegations, or by a mere scintilla of
evidence." Little v. Liquid Air. Corp., 37 F.3d 1069, 1075 (5th Cir. 1994).
Discussion
a. Tabor does not produce any competent summary judgment evidence.
Rule 56(c)(1)(A) of the Federal Rules of Civil Procedure requires a plaintiff asserting that
a fact is genuinely disputed to support that assertion by:
Citing to particular parts of materials in the record, including depositions, documents,
electronically stored information, affidavits, or declarations, stipulations (including those
made for purposes of the motion only), admissions, interrogatory answers, or other
materials.

3

Case 5:18-cv-01308-SMH-KLH Document 38 Filed 12/16/19 Page 4 of 7 PagelD #: 333

“An affidavit or declaration used to support or oppose a motion must be made on personal
knowledge, set out facts that would be admissible in evidence, and show that the affiant or
declarant is competent to testify on the matters stated.” Fed. R. Civ. P. 56(C)(1)(4).
28 U.S.C. § 1746 relaxes the requirement for an affidavit and grants an unsworn declaration
made under the penalty of perjury the same effect, but only when the unsworn declaration is (1)
“in writing of such a person which is subscribed by him,” (2) declared “true under the penalty of
perjury,” and (3) dated. Unsworn documents are not competent summary judgment evidence.
Martin v. John W. Stone Oil Dist., 819 F.2d 547, 549 (5th Cir. 1987).
In response to Coleman’s motion, Tabor filed his own motion for summary judgment,
unaccompanied by a statement of material facts.1 [doc. # 36]. The motion is not made under
penalty of perjury, making it incompetent summary judgment evidence. Tabor claims that a
videotape of the incident will prove the veracity of his allegations but fails to produce the video.2
[doc. # 33, p. 1]. Tabor’s complaint was also not made under penalty of perjury, making it
incompetent summary judgment evidence. Thus, he has not produced any competent summary
judgment evidence and his motion for summary judgment should be denied.
The uncontroverted evidence, as gleaned from the affidavits of Officer Coleman and
Officer Haulcy, establishes the following facts:
1. On February 7, 2017, Major Vincent Coleman sprayed only a short burst of chemical
agent to the head and shoulder area of Tabor following Tabor’s refusal to comply with
several orders to stop yelling and hold the noise.
2. On February 7, 2017, only the amount of force (chemical agent) necessary to prevent
offender Tabor from continuing to create a disturbance, restore discipline and gain
i

Tabor did not submit a memorandum in support of his motion but does include a discussion in
the motion itself.
2 Though his initial complaint stated Tabor intended to ask for “the video footage to be brought
to light,” he never filed a motion to compel this videotape, [doc. # 1, p. 4].
4

Case 5:18-cv-01308-SMH-KLH Document 38 Filed 12/16/19 Page 5 of 7 PagelD #: 334

compliance was used following Tabor’s refusal to comply with several orders to stop
yelling.
b. Coleman is entitled to qualified immunity because Tabor did not demonstrate a
genuine dispute of material fact as to a violation of a constitutional right.
Qualified immunity often protects public officials from liability in Section 1983 actions
brought against a person acting under the color of state law in his individual capacity.3 The doctrine
of qualified immunity shields government officials performing discretionary functions “from
liability for civil damages insofar as their conduct does not violate clearly established statutory or
constitutional rights of which a reasonable person would have known.” Harlow v. Fitzgerald, 457
U.S. 800, 818, 102 S.Ct. 2727, 2738, 73 L.Ed.2d 396 (1982). “The basic thrust of the qualifiedimmunity doctrine is to free officials from the concerns of litigation.” Ashcroft v. Iqbal, 556 U.S.
662, 685, 129 S.Ct. 1937, 173 L.Ed.2d 868 (2009)(intemal quotations and citations omitted).
Once the defendant, as he did here, raises a qualified immunity defense, the plaintiff carries
the burden of demonstrating the inapplicability of qualified immunity. See Floyd v. City of Kenner,
351 Fed. Appx. 890, 893 (5th Cir. 2009). First, the court must determine whether the plaintiff
demonstrated a genuine dispute of material fact as to a violation of a constitutional right. Pearson
v. Callahan, 555 U.S. 223, 231, 129 S. Ct. 808, 815 (2009). Second, the court must determine
whether the constitutional right at issue was “clearly established” at the time of the defendant’s
alleged misconduct. Id. A defendant can only be held liable if he violates a right that is clearly
established at the time of the violation. Id.

3 Though Tabor provides the court with citations to cases where the defendant was sued in his
official capacity, he sues Coleman in his individual capacity.
5

Case 5:18-cv-01308-SMH-KLH Document 38 Filed 12/16/19 Page 6 of 7 PagelD #: 335

When a prison official is accused of using excessive physical force in contravention of the
Eighth Amendment’s Cruel and Unusual Punishments Clause, the core judicial inquiry is “whether
force was applied in a good-faith effort to maintain or restore discipline, or maliciously and
sadistically to cause harm.” Hudson v. McMillian, 503 U.S. 1, 7, 112 S.Ct. 995, 999 (1992)(citing
Whitley v. Albers, 475 U.S. 312, 106 S.Ct. 1078 (1986)); Siglar v. Hightower, 112 F.3d 191, 193
(5th Cir. 1997). At the time of the suit, it was clearly established that using mace does not constitute
excessive use of force, when, as alleged by defendant Coleman, it is employed in response to an
inmate’s refusal to cease disruptive behavior that interferes with the facility’s safety—even where
the inmate is restrained inside of his cell. See Scott v. Hanson, 330 Fed. Appx. 490, 491 (5th Cir.
2009).
The competent summary judgment evidence produced by defendant establishes that
Coleman’s use of force was lawful. Coleman applied only the amount of mace necessary to
maintain discipline after Tabor’s disruptive behavior. Coleman neither intended to cause harm to
Tabor nor used mace sadistically. Because the force applied to Tabor does not rise to the level of
a constitutional violation, Coleman is entitled to summary judgment, unless Tabor produces
competent summary judgment evidence in his objection to this report and recommendation.
Conclusion
For the foregoing reasons,
IT IS RECOMMENDED that Defendant’s motion for summary judgment [doc. # 31] be
GRANTED and Plaintiffs claims be DISMISSED without prejudice.
IT IS FURTHER RECOMMENDED that Plaintiffs motion for summary judgment
[doc. # 33] be DENIED.

6

Additional material
from this filing is
available in the
Clerk's Office.

